HHS/OIG, Audit - Pharmaceutical Manufacturers Overcharged 340B-Covered Entities, (A-06-01-00060)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
Pharmaceutical Manufacturers Overcharged 340B-Covered Entities, (A-06-01-00060)
March 10, 2003
Complete Text of Report is available in PDF format
(433 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that five pharmaceutical manufacturers, makers
of the 11 prescription drugs included in our review, overcharged 340B-covered
entities an estimated $6.1 million for the drugs during the year ended September
30, 1999. The overcharges represented 45 percent of the amount paid by the covered
entities, and occurred because the drug manufacturers inappropriately excluded
sales to health maintenance organization repackagers in calculating their best
price determinations, thereby increasing the prices charged to 340B entities.
We recommended that the Health Resources and Services Administration require
the five drug manufacturers to identify the exact amount of the overcharges
for each of the affected 340B entities and apply the overcharge amounts as offsets
or credits to each entitys future purchases. The HRSA concurred with our recommendation.